"Review of Fee Schedules Used for Reimbursement of Clinical Laboratory Services - Connecticut Medicaid Program,"(A-01-01-00003)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Fee Schedules Used for Reimbursement of Clinical Laboratory Services - Connecticut Medicaid Program," (A-01-01-00003)
June 22, 2001
Complete
Text of Report is available in PDF format (703 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that, contrary to Medicaid reimbursement requirements, the State agency's Medicaid reimbursements
to providers for clinical laboratory and pathology services exceeded what the Medicare program recognizes as reimbursement
for the same services.  We found that the State agency had not updated their clinical laboratory fee schedule since
1994.  However, during this time, Medicare fee schedules for many services had actually decreased.  Our analysis
of State agency payments made during the period January 1996 through December 1999 for clinical laboratory and pathology
services showed overpayments totaling $2,823,505 ($1,411,752 Federal share) were made for these services.  We recommended
that the State agency (1) implement procedures to update clinical laboratory fee schedules on a regular basis to ensure
that amounts paid for clinical laboratory services do not exceed amounts that Medicare pays for the same services and (2)
make a financial adjustment on the next Quarterly HCFA-64 Report of Title XIX expenditures in the amount of $2,823,505
($1,411,752 Federal share).  The State agency stated that it will adjust its next Quarterly HCFA-64 Report of Title
XIX expenditures as recommended and also took action to update its laboratory fee schedule annually by obtaining the relevant
information from Medicare.